No. _____
IN THE

Supreme Court of the United States
UBER TECHNOLOGIES, INC.,
Petitioner,
v.
DAMARIS ROSALES,
Respondent.

CERTIFICATE OF SERVICE

I hereby certify that I am a member in good standing of the bar of this Court and that
on this 6th day of October 2021, I caused three copies of the Petition for a Writ of
Certiorari to be served by third-party commercial carrier on the counsel identified
below, and caused an electronic version to be transmitted to the counsel identified
below, pursuant to Rule 29.5 of the Rules of this Court. All parties required to be served
have been served.
Counsel for Respondent:
Michael Alexander Gold
mgold@goldaplc.com
GOLD APLC
10940 Wilshire Blvd., Suite 1600
Los Angeles, CA 90024-3910
Tel.: (323) 936-0540

Clerk of Court
Re: Case No. BC685555
CIVIL DIVISION, SUPERIOR COURT OF
CALIFORNIA, COUNTY OF LOS ANGELES
312 North Spring St.
Los Angeles, CA 90012
(213) 310-7000

Theane D. Evangelis

